REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
 CLIENT SUPPORT CENTER CONTROLS AND
          TESTING OF CONTROLS
      GREATER SOUTHWEST REGION
    REPORT NUMBER A050009/T/7/Z05015

             MAY 18, 2005
Results of Audit

We determined the Region 7 CSC to be not compliant but making progress and
considered close to compliant. The Region 7 CSC has implemented national controls
identified in the Administrator’s “Get it Right” initiative, and has improved its overall
contracting practices, compared to our past audit findings. We found no instances of
non-compliance with the competition requirements of Section 803 of the National
Defense Authorization Act for Fiscal Year 2002. Furthermore, we found the Region 7
CSC had taken appropriate steps to remediate past problems. However, we found a
new order that had a procurement compliance deficiency with limited potential financial
impact. In addition, as a result of a DOD OIG referral, we found one task order in which
the Region 7 CSC exercised an option early for severable services with prior year
funds. As directed in the Ronald W. Reagan National Defense Authorization Act for
Fiscal Year 2005, because the CSC is not fully compliant, we are required to perform a
subsequent audit of CSC contracting practices by March 2006 to determine whether the
CSC has become compliant.

Procurement Compliance Deficiency with Limited Potential Financial Impact We
identified a schedule order for $598,041 for a desktop trainer that was awarded without
requesting discounts as required by Federal Acquisition Regulation (FAR) Part 8.4
when orders exceed the maximum order threshold (MOT) of the schedule contract. The
FAR requires, for higher dollar value purchases over the MOT, that discounts be
specifically requested given the larger dollar value of the purchase. Because the dollar
value of the task order was only $598,000, the potential financial impact was not
significant.

Significant Funding Issue The Region 7 CSC issued a modification in September 2004
for $1.6 million to exercise an option year, 4 months early, to utilize FY 2002 and 2003
residual funds. According to contract documentation and regional officials, the prior
year funding was residual funding from several other task orders for other projects and
was at risk of being lost due to changes in GSA’s long standing practices governing the
use of the Information Technology (IT) Fund. The use of prior year funding from other
task orders to fund a task order in FY 2004 for severable services to be performed in FY
2005 was inappropriate, although we recognized that various guidance issued to CSC
staff might not have been clear.

Conclusion

While not fully compliant, we found that the Region 7 CSC has made significant
progress in implementing controls to ensure compliance with procurement regulations.
The CSC has implemented national controls identified in the Administrator’s “Get It
Right” initiative and improved its overall contracting practices. As stated in the January
2004 report on the FTS CSCs, we believe that steps to remedy the CSC procurement
problems require a comprehensive, broad-based strategy that focuses on the structure,
operations, and mission of the CSCs as well as the control environment. Based on the




                                            2
                      ATTACHMENT 1
MANAGEMENT RESPONSE
                                                          ATTACHMENT 2



                 REVIEW OF FEDERAL TECHNOLOGY SERVICE’S
                  CLIENT SUPPORT CENTER CONTROLS AND
                           TESTING OF CONTROLS
                       GREATER SOUTHWEST REGION
                     REPORT NUMBER A050009/T/7/Z05015


                               REPORT DISTRIBUTION

                                                                 Copies

Commissioner, Federal Technology Service (T)                        3

Regional Administrator (7A)                                         3

Assistant Inspector General for Auditing (JA)                       2

Regional Inspector General for Investigations (JI-7)                1
